September 23, 2008

DAVID E. WILLIAMS, JR.
MANAGER, PROCESSING OPERATIONS

SUBJECT:     Audit Report – Assessment of the Remote Encoding Center Network
             Consolidation Process (Report Number EN-AR-08-007)

This report presents the results of our audit of the Remote Encoding Center (REC)
network consolidation process (Project Number 08XG014EN000). Our objectives were
to assess the process and criteria used to realign the REC network and validate
reported cost savings for calendar years (CY) 2006 and 2007. The U.S. Postal Service
requested this audit and we conducted it in cooperation with Postal Service officials.
This audit addresses network streamlining in the strategic risk category as well as
staffing and process efficiency in the operational risk category. Click here to go to
Appendix A for additional information about this audit.

Conclusion

Our review concluded:

   The Postal Service effectively reduced the size of its REC network. Management
    closed 47 facilities in response to workload reductions, which resulted in a
    41 percent decrease in REC network operating costs from 1999 to 2007.
    Management had valid reasons for selecting specific RECs for closure; however, the
    business cases justifying their decisions were sometimes confusing. Adding more
    details explaining the methodology would add clarity as the realignment process
    continues.

   Projected cost savings for 2006 and 2007 were generally supported; however, the
    projected cost savings for 2007 were overstated by approximately $300,000. This
    occurred because equipment depreciation expenses were incorrectly included in the
    savings calculation.
Assessment of the Remote Encoding Center                                  EN-AR-08-007
 Network Consolidation Process



Process and Criteria Used to Realign the Remote Encoding Center Network

The Postal Service successfully realigned its REC network and reduced the number of
REC facilities from 55 in 1999 to eight at the end of 2007. Management determined the
amount of excess capacity and consolidated the REC network in response to workload
reductions, resulting in a 41 percent decrease in operating costs. At the same time,
image workload was expanded to include unreadable flats and parcels,1 undeliverable
as addressed mail, and change of address forms. Management was successful in
reducing the REC network because approximately 70 percent of the employees were
temporary, the physical location of the sites was not significant, the RECs were planned
as temporary facilities, and stakeholder resistance was minimal.

The Postal Service developed criteria to identify RECs for closure and business cases
justifying the decisions. However, some of the business cases were confusing. For
example, management did not clearly explain the rationale for some REC closings.
Adding more details to clarify the methodology used to select RECs for closure would
improve the realignment process as it continues. Click here to go to Appendix B for
more details.

2006 and 2007 Cost Savings Reported

The Postal Service’s reported cost savings of $5.9 million for 2006 and $7.1 million for
2007 were generally supported. However, when we compared the reported savings to
the amount achieved, we found the Postal Service had overstated its 2007 savings by
approximately $300,000. This occurred because the Postal Service inadvertently
included equipment depreciation expense in their savings calculations, although that
expense was not eliminated by management’s closure of the RECs. In addition, we
could not validate $2,258 in rent expenses used in the 2007 reported savings. Accurate
and complete financial data is important for supporting management decisions and
strengthening stakeholder confidence in the realignment process. Click here to go to
Appendix B for more details.

We recommend the Manager, Processing Operations:

1. Clarify the methodology used to select remote encoding centers for closure in future
   business cases.

2. Revise 2007 remote encoding center closure savings from $7.1 million to $6.8
   million.




1
    Flats are large envelopes, and parcels are packages.




                                                           2
Assessment of the Remote Encoding Center                                   EN-AR-08-007
 Network Consolidation Process



Management’s Comments

Management agreed with our recommendations and plans to more clearly state the
methodology used to identify remote encoding centers for consolidation in future
business cases. Additionally, management plans to update the closure savings to
reflect the $6.8 million in savings for 2007. Management’s comments, in their entirety,
are included in Appendix C.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and the corrective actions should
resolve the issues identified in the report. The OIG considers recommendation 1
significant, and therefore requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. The
recommendation should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, Director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachment

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Chris R. Oronzio
    Katherine S. Banks




                                            3
Assessment of the Remote Encoding Center                                                          EN-AR-08-007
 Network Consolidation Process


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In 1994, Postal Service officials established RECs as a temporary solution to assist
facilities in processing mail with unreadable addresses. When a mailpiece first arrives
at a mail processing facility, Optical Character Readers (OCRs) and Remote Computer
Readers (RCRs) read the address and apply a barcode to the mailpiece. If the mail
processing equipment is unable to read the address, it transmits an electronic image of
the mailpiece to the REC. The image is then displayed on a video display terminal for
REC data conversion operators (DCOs) to interpret. The DCOs enter the requested
information into the system, which electronically transmits it back to the mail processing
facility. At the processing facility, a barcode is applied to the mailpiece, which is then
sent to its destination.

                 Figure 1: DCO Workstations Inside the Wichita, Kansas REC




By 1997, the Postal Service had established a network of 55 RECs, which processed
over 24 billion images per year.2 With improved technology RECs can now also
process flat and parcel3 images. However, as OCR and RCR capabilities improved, the
volume of images sent to the RECs declined, prompting Postal Service officials to
consolidate REC facilities. Figure 2 shows the decline in total images RECs processed
and the corresponding decrease in the number of DCOs between fiscal years (FYs)
1994 and 2007.4

2
  When the Postal Service first established RECs, they processed only letter mail with unreadable addresses.
3
  REC sites began processing flats in 2002 and parcels in 2004.
4
  December is the month that the highest number of DCOs work at the RECs.




                                                         4
Assessment of the Remote Encoding Center                                                                              EN-AR-08-007
 Network Consolidation Process



 Figure 2: Total Images RECs Processed and the Corresponding Decrease in the
                   Number of DCOs between FYs 1994 and 2007
                  35                                                                                                          24
      Thousands




                                                                                                                                   Billions
                  30
                                                                                                                              18
                  25

                  20
                                                                                                                              12
                  15

                  10
                                                                                                                              6
                   5

                   0                                                                                                          0
                       1994   1995   1996   1997   1998   1999   2000       2001   2002   2003   2004   2005   2006    2007


                                      Keyed Volume (Billions of Images)               DCOs in December (Thousands)


Source: U.S. Postal Service

In 1999, the Postal Service initiated the REC network realignment process by
developing standardized criteria to identify excess capacity in the network and a
business case explaining why specific RECs were selected for closure. The Postal
Service effectively decreased the number of RECs from 55 to eight by the end of 2007
and at the same time expanded the types of images sent to the RECs. Figure 3 shows
the number of images and REC sites by year.




                                                                        5
Assessment of the Remote Encoding Center                                                          EN-AR-08-007
 Network Consolidation Process



                                          Figure 3: Images Processed and Number of Open RECs by FY




                                     18                                                                      60

                                     16
                                                                                                             50
      Images Processed in Billions




                                     14

                                     12                                                                      40




                                                                                                                  Open RECs
                                     10
                                                                                                             30
                                     8

                                     6                                                                       20

                                     4
                                                                                                             10
                                     2

                                     0                                                                       0
                                          1998 1999 2000 2001 2002 2003 2004 2005 2006 2007

                                                   Total Images Processed            Open Recs




Source: OIG analysis of Postal Service data

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess the process and criteria used to realign the REC network
and validate reported costs savings for CYs 2006 and 2007. We visited and interviewed
managers at headquarters; the Wichita, Kansas, and Charleston, West Virginia RECs;
and mail processing facilities supported by those RECs. We gathered and reviewed
information related to REC operations and the realignment process; criteria used to
identify RECs for closure; related policies and procedures; and the Decision Analysis
Report (DAR) for the Wichita, Kansas and Salt Lake City, Utah Remote Encoding
Center Network Consolidations.5 In addition, we compared current REC operations with
operations before the start of the network realignment in 1999, and we validated the
reasonableness of reported savings associated with RECs closed in 2006 and 2007.


5
    We did not audit the DAR for the Wichita, Kansas, and Salt Lake City, Utah REC Network Consolidations.




                                                                            6
Assessment of the Remote Encoding Center                                    EN-AR-08-007
 Network Consolidation Process


We relied on Postal Service data systems: the Web Enterprise Information System, the
Facility Management System (FMS), and the Web Remote Encoding Center Operations
Analysis Database. We used these systems to obtain data on the volume of
unreadable mail processed through the RECs, the number of DCOs assigned to the
RECs, and the lease costs associated with RECs closed in 2006 and 2007. We did not
test the validity of controls over these Postal Service data systems. However, as
alternate audit procedures, we reviewed source documents and discussed data with
responsible officials.

To assess the reasonableness of the reported savings from facility leases, we extracted
the Facility Detail Report from the FMS for all RECs closed in 2006 and 2007 and
compared the lease costs in the report to the lease costs used by the Postal Service.
To validate the savings attributed to labor costs, we calculated the labor savings by
multiplying the number of full-time equivalents by the rate identified by the Postal
Service for each REC. We then compared our results with the Postal Service’s reported
savings.

We conducted this performance audit from December 2007 through September 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on August 12, 2008, and
included their comments where appropriate.

PRIOR AUDIT COVERAGE

No prior audits related to the scope of this audit have been issued in the past 3 years.




                                            7
Assessment of the Remote Encoding Center                                                        EN-AR-08-007
 Network Consolidation Process



                               APPENDIX B: DETAILED ANALYSIS

Process and Criteria Used to Realign the Remote Encoding Center Network

The Postal Service effectively evaluated excess capacity and realigned the REC
network by reducing the number of RECs from 55 in 1999 to eight by the end of 2007.6
As a result, the Postal Service reduced its number of DCOs from 30,200 to 5,708 and
overhead costs from $406.9 million to $240.2 million. Management eliminated excess
capacity by identifying RECs for closure and developing a plan to redistribute the
workload to the remaining RECs. Management was successful in reducing the REC
network because approximately 70 percent of the employees were temporary, the
physical location of the sites was not significant, the RECs were planned as temporary
facilities, and stakeholder resistance was minimal. Figure 4 summarizes the reductions
that resulted from consolidating the REC network.

           Figure 4: Reductions Resulting From REC Network Consolidation
                                         1999          2007         Reduction
    REC Facilities                               55              8             47
    Data Conversion Operators               30,200         5,865         24,492
    Total Network Operating Costs    $406.9 million $240.2 million $166.7 million

The Postal Service developed criteria to identify RECs for closure and business cases
to justify the decisions. However, terminology used in some of the business cases was
confusing. This occurred because management considered the business cases internal
documents and stated that parties involved in the realignment process understood the
terminology. As the realignment process continues, additional clarity may be needed.

The Postal Service developed a business case that listed the criteria used to identify
RECs for closure. These criteria were:

      •   Operating costs
      •   Facility costs
      •   Career opportunities
      •   Facility’s ability to absorb additional plant workload
      •   Hiring base
      •   Risk

We found that wording in some of the business cases was confusing, and management
did not clearly explain the rationale for some REC closings. For example, the business
case for the closing of the Bowling Green, Kentucky, and Albany, New York, RECs in
2004 stated that the RECs had processing costs in the “lowest quarter of the 20

6
 The Postal Service has announced plans to close the Selma, California, and Pittsburgh, Pennsylvania, RECs in
2008.




                                                        8
Assessment of the Remote Encoding Center                                                         EN-AR-08-007
 Network Consolidation Process


remaining RECs.” After clarification from management, we learned that these RECs
had the highest processing costs. As the realignment process continues and larger
RECs are closed, a more clearly written business case with additional methodology
details would avoid confusion.

2006 and 2007 Cost Savings Reported

The Postal Service’s reported cost savings of $5.9 million for 2006 and $7.1 million for
2007 were generally supported.

    •       We validated the reasonableness of savings associated with labor and facility
            lease costs, which represent the majority of reported savings. Figure 5 shows
            the percentage of savings validated.

                      Figure 5: Reported Savings and Dollars Validated
                           Postal                Dollars Validated by OIG
      REC                 Service           Facility                            Percentage
    Name/Year            Reported           Annual       Labor                  of Validated
     Closed               Savings            Lease     Savings8 Total Dollars    Savings7
San Bernardino,          $1.5 million       $190,628          N/A      $190,628           N/A
CA (2006)
Peoria, IL               $2.2 million       $220,800                  N/A          $220,800                    N/A
(2006)
Akron, OH                $2.2 million       $126,234                  N/A          $126,234                    N/A
(2006)
Modesto, CA              $1.7 million       $285,000          $914,709          $1,199,709                     71
(2007)
Beaumont, TX             $2.0 million       $479,340          $935,092          $1,414,432                     71
(2007)
Fayetteville, NC         $1.6 million       $213,025        $1,146,566          $1,359,591                     85
(2007)
Tampa, FL                $1.8 million       $343,814        $1,320,187          $1,664,001                     92
(2007)

        •    We found the savings reported for 2007 were overstated by more than
             $300,000. This occurred because Postal Service personnel inadvertently
             included equipment depreciation costs in their savings calculation, although
             closing the RECs did not eliminate the depreciation costs. In addition, we could
             not validate $2,258 in rent expenses for the San Bernardino REC that were


7
  The percentages shown in this column represent the amount of Postal Service reported savings the OIG validated.
8
  We could not validate the reported labor savings for the RECs closed in 2006. The DAR did not show the labor
savings for each REC, and the Postal Service was not able to provide additional information. However, we validated
the total labor savings reported in the DAR for the three RECs closed in 2006.




                                                        9
  Assessment of the Remote Encoding Center                                         EN-AR-08-007
   Network Consolidation Process


              included in 2007 reported savings. Figure 6 compares the Postal Service’s
              lease costs to the OIG’s calculations of lease costs.

                      Figure 6: The Postal Service’s Reported Lease Savings
                                    and the OIG’s Calculations
                                                                                     Difference
                                                                                   Between Lease
                                                                                      Savings
                              Postal              OIG Lease Data Calculations       Reported by
                              Service          Facility                            Postal Service
                               Lease            Detail  Other Costs      Total        and OIG
          REC                   Data           Report    Included9      Lease       Calculations
San Bernardino, CA            $190,628         $188,370                 $188,370            $2,258
Peoria, IL                    $220,800         $220,800                 $220,800                $0
Akron, OH                     $126,234         $126,234                 $126,234                $0
Modesto, CA                   $285,000         $210,000     $75,000     $285,000                $0
Beaumont, TX                  $479,340         $479,340                 $479,340                $0
Fayetteville, NC              $213,025         $157,430     $55,595     $213,025                $0
Tampa, FL                     $343,814         $216,000    $127,814     $343,814                $0

  The Postal Accountability and Enhancement Act, dated December 8, 2006, requires the
  Postal Service to establish a network plan showing how it intends to eliminate excess
  capacity and identify the anticipated costs, cost savings, and other benefits associated
  with eliminating excess capacity. In addition, the Postal Service must submit an annual
  report to Congress showing how the elimination of excess capacity has impacted or will
  impact realignment efforts.

  Although the Postal Service achieved most of the projected cost savings by
  consolidating the REC network, it overstated these savings by at least $302,000. As a
  result, the Postal Service saved approximately $6.8 million instead of $7.1 million in
  2007. Accurate and complete financial data is important for supporting management
  decisions and strengthening stakeholders’ confidence in the realignment process.




  9
      These leases also required payments for maintenance costs.




                                                           10
Assessment of the Remote Encoding Center                  EN-AR-08-007
 Network Consolidation Process


                      APPENDIX C: MANAGEMENT’S COMMENTS




                                           11
